<html>
<title> - WINNING THE RACE AGAINST CANCER</title>
<body><pre>[Senate Hearing 109-1008]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1008
 
                    WINNING THE RACE AGAINST CANCER

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                      JULY 28, 2006--IOWA CITY, IA

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
34-362                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            DANIEL K. INOUYE, Hawaii
LARRY CRAIG, Idaho                   HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          HERB KOHL, Wisconsin
TED STEVENS, Alaska                  PATTY MURRAY, Washington
MIKE DeWINE, Ohio                    MARY L. LANDRIEU, Louisiana
RICHARD C. SHELBY, Alabama           RICHARD J. DURBIN, Illinois
                                     ROBERT C. BYRD, West Virginia (Ex 
                                         officio)
                           Professional Staff
                            Bettilou Taylor
                              Jim Sourwine
                              Mark Laisch
                         Sudip Shrikant Parikh
                              Candice Ngo
                             Lisa Bernhardt
                        Ellen Murray (Minority)
                         Erik Fatemi (Minority)
                      Adrienne Hallett (Minority)

                         Administrative Support
                               Jeff Kratz


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Tom Harkin..........................     1
Statement of Senator John Kerry..................................     3
Statement of Gary Streit, Cedar Rapids, Iowa.....................     6
Statement of Dr. George Weiner, director, the Holden 
  Comprehensive Cancer Center, University of Iowa, Chair, the 
  State of Iowa's Comprehensive Cancer Control Consortium........     9
Statement of Shirley Ruedy, author, the Cancer Update Column in 
  the Cedar Rapids Gazette.......................................    11
Statement of Lance Armstrong.....................................    13


                    WINNING THE RACE AGAINST CANCER

                              ----------                              


                         FRIDAY, JULY 28, 2006

                           U.S. Senate,    
   Subcommittee on Labor, Health and Human,
         Services, Education, and Related Agencies,
                               Committee on Appropriations,
                                                     Iowa City, IA.
    The subcommittee met at 8:30 a.m., at the University of 
Iowa, Iowa Memorial Union, 2nd Floor Ballroom, Iowa City, Iowa, 
Hon. Tom Harkin presiding.
    Present: Senators Harkin and Specter.
    Also present: Senator John Kerry.


                opening statement of senator tom harkin


    Senator Harkin. Good morning, everyone and I do mean 
everyone. I just opened the paper this morning and I see I've 
got some things to watch today or to get online and see online. 
There is ``Where is Lance Today?''
    I can go online and see that. Lance is right across the 
isle--I can also get that online but the best one that I want 
to get is, Watch Lance Eat Pie.
    I've always wanted to watch Lance Armstrong eat pie for 
some reason, I don't know. Coconut cream pie, that's right. 
Exactly.
    Well, good morning everyone. The Senate Appropriations 
Committee on Labor, Health, Human Services, Education, and 
Related Agencies will come to order. This is an official 
hearing of the Appropriations Committee of the Senate on 
Health, Labor, Education, amd Related Agencies. Let me thank 
the University of Iowa for making this excellent facility 
available to us this morning, given the obvious interest in 
Lance Armstrong's testimony, perhaps we should render the 
Keynes Stadium for this, this morning. Folks in Iowa have been 
thrilled to have Lance in our State this week for RAGBRAI 
(Register's Annual Great Bicycle Ride Across Iowa). We just 
made him promise to not ride the whole thing in one day.
    Mr. Armstrong. You guys!
    Senator Harkin. The focus of this morning's hearing is to 
determine where we stand in cancer research and in providing 
access to quality care. I also want to explore whether we are 
adequately supporting prevention and screening. Unfortunately, 
I'm obliged to begin this morning's hearing by acknowledging a 
harsh reality. Since the Second World War, the United States is 
the undisputed leader in biomedical research, much of which 
goes on right here at this great University.
    With the Federal Government providing both the vision and 
the funding necessary to maintain that leadership. But today 
our leadership is threatened. Last week, the President vetoed 
H.R. 810, the Stem Cell Research Enhancement Act. That bill 
passed by a bipartisan vote in both the House and the Senate. 
That decision means that many of America's top scientists will 
remain in a strait jacket, unable to move forward in the most 
promising field of medical research in our time, research that 
has a very special interest to cancer researchers and Dr. 
Weiner will speak to that.
    Meanwhile, the President's budget for fiscal year 2007 
would cut the funding for the National Cancer Institute by $40 
million. That comes on the heels of a $35 million cut this 
year. The President's budget also cuts cancer programs at the 
Centers for Disease Control and Prevention, including 
reductions to breast and cervical cancer screening programs as 
well as to the Survivorship Program, which of course works in 
collaboration with Lance Armstrong Foundation. In our markup of 
the bill last week, we were able to cobble together a small 
increase for NIH and the CDC Cancer Programs but that was just 
to try to get us back to the 2005 level, not any increases, but 
try to get us back just to the 2005 level and again, I want to 
make sure this is not a partisan thing.
    My friend, Arlen Specter, who is the Chair of this 
subcommittee, a Republican from Pennsylvania said the bill 
represents, and I quote his words exactly, ``the disintegration 
of the appropriate Federal role in health, education and worker 
safety.'' So, in the President's budget, funding is cut for 18 
of the 19 Institutes of the National Institute of Health. As I 
said, the National Cancer Institute gets cut for the second 
year in a row.
    So today, we're going backward. Instead of funding a war on 
cancer, the President's budget would fund a retreat in the war 
on cancer. How many of us in this audience have had someone in 
our family or a loved one who has cancer or themselves have had 
cancer? See what I mean? My own family has been hit hard by 
cancer. I had five sibling, six kids. Four of them have already 
died of cancer. Two were breast cancer, one prostate, one 
thyroid. So it hit our family pretty darn hard. Well, that's 
why this hearing and the testimony of our witnesses are so 
important.
    If we are going to win the race against cancer, we need a 
sustained, relentless and stoppable focused commitment to 
victory, a sort of a Lance Armstrong-type of commitment to 
winning and that attitude is what all our witnesses this 
morning share in common. I will read them all and when I 
introduce them, I'll just call them by name. First, my friend 
and my colleague, Senator John Kerry of Massachusetts, himself.
    He himself waged a successful personal battle against 
prostate cancer. He has been, in the all the years that we've 
served together and we came together to the Senate in 1984. He 
has been an outspoken champion of cancer research and he is a 
recognized leader in the Senate to improve health care, the 
whole health care system in America. Lieutenant Governor first 
in Massachusetts and as I said, a Senator since 1984 and of 
course, the Democratic Party nominee for President in 2004.
    Lance Armstrong needs no introduction. I'll just skip over 
Lance, everybody knows Lance.
    Gary Streit is a native Iowan, a graduate of Iowa State and 
the University of Iowa, College of Law. He is an attorney in 
Cedar Rapids. Mr. Streit has been an active volunteer for the 
American Cancer Society for three decades, Chair of the 
Society's National Board in 2002-2003 and he played a major 
role in founding the Society's Cancer Action Network.
    Dr. George Weiner, Director of the Holden Comprehensive 
Cancer Center here at the University, Chair of the State of 
Iowa's Comprehensive Cancer Control Consortium. He earned his 
undergraduate degree at Johns Hopkins and medical degree from 
Ohio State and has been a faculty member here since 1989.
    Shirley Ruedy, a three-time cancer survivor and award-
winning author of the Cancer Update column in the Cedar Rapids 
Gazette. She is a recipient of the American Cancer Society's 
Courage Award, among many other distinctions. Shirley Ruedy, 
thank you again.
    At the end of when the witnesses formally testify, I'll 
have a few questions for them and then I intend to have an open 
mike and somebody has a mike to run around the room with here 
and we'll try to have as much interaction as possible. If you 
have questions or comments or suggestions, we'd like to hear 
from all of you. Now, I'll just say to all our witnesses, any 
statements you have will made part of the record in their 
entirety. If you could sum it up in 5-7 minutes, I would sure 
appreciate it and we first turn to my colleague and good 
friend, Senator John Kerry.


                    STATEMENT OF SENATOR JOHN KERRY


    Senator Kerry. Thank you, Tom.
    Tom Harkin, thank you very, very much for inviting me to be 
here. It's wonderful to be back here in Iowa. It is wonderful 
to be here in Iowa City and back at the University, which I've 
visited many times and always being back at the University 
reminds me of a lot of memories from college days, most of 
which I can now talk about since the statute of limitations has 
passed.
    It is special to be here with this panel, Lance Armstrong 
and each of the experts who are going to share some thoughts 
with us about cancer and cancer research today. We're here for 
a very simple reason, to protect, to guard our Government's 
commitment to fighting and to one day, curing cancer. As 
Senator Harkin said to you, he and I came to the Senate 
together in 1984, we were elected. We were then number 98 and 
99 in seniority in the U.S. Senate and I think we are now both 
lower than 20, to tell you how time passes. In that time, Iowa 
and the country have been so extraordinarily represented in all 
of the issues of education and health, by Tom Harkin.
    I am grateful for his friendship. As you know, Tom was very 
close to Paul Wellstone, Paul Wellstone was thought to be sort 
of the conscience of the Senate and I will tell you, Tom 
Harkin, with his commitment to the Americans with Disabilities 
Act, to his funding of health care programs and education has 
been absolutely superb. He is today, in my judgment, our 
conscience of the Senate. I'm grateful to him for his 
leadership and all the work he does.
    Lance Armstrong, besides watching him eat pie, is obviously 
an inspiration to all of us and to people all over the world. I 
was here in Iowa, on the banks of the Missouri River at a 
rally. When I came down after talking and a woman with tears in 
her eyes, with an obvious level of just upset and anxiety and 
passion, grabbed me and said, ``You gotta wear this'' and she 
handed me my first--this is not the same one, that one broke 
and I had to replace it but I have it--she handed me my first 
bracelet and said, ``you have to wear this for cancer.'' So 
literally, I put it on then and I never took it off and I've 
never taken it off since. It's a reminder of this fight that 
was represented by all those hands that just went up in here, a 
fight that Tom just told you took so many members of his 
family, a fight that cost my grandfather his life with colon 
cancer, my father, his life with prostate cancer, and my ex-
wife 3 months ago with bladder cancer.
    I can't tell you how many people I've met in the course of 
traveling this Nation of ours who noticed my bracelet and would 
share with me the stories of their fight and their battle to 
try and cure cancer. This bracelet and Lance's work have 
created an enormous sense of community and most importantly, a 
sense of the possibilities, of hope, of what we can achieve if 
we tap into the best of the American spirit.
    The fact is, that all of you sitting here who raised your 
hands have either beaten it yourself or known somebody who has 
or on the other side, lost somebody because we didn't go far 
enough in this battle. So I was lucky. I was also diagnosed in 
2003, about 2 months after I announced that I was going to try 
and run for President. You can imagine, literally--I think it 
was about Christmas Eve when I got the phone call and you go 
through this incredible process of questioning and wondering. 
You don't know anything at first so you go through this, you 
know--what are the options? How bad is it? Where am I?
    I determined, like a lot of others, like Lance and others, 
that this wasn't going to get in the way, somehow I was going 
to beat it. But I was lucky. I had early detection. I had the 
best health care in the world and too many people in our 
country don't get that. They don't know the options, they don't 
get early detection, they don't have the availability of the 
best health care. So that's really what we have to talk about, 
about--I mean, just understanding those options and realizing 
what choices I had made an enormous difference psychologically, 
to the ability to be able to go out and deal. That experience 
makes me more determined than ever and something I've always 
believed: Number one, that everybody in this country ought to 
be able to get a healthcare plan that is just as good as the 
one that Members of Congress give themselves. That's number 
one.
    Number two, that cancer research, the number one killer of 
people in America under the age of 85, cancer research has got 
to be a real national priority, not a rhetorical one but a real 
one in every sense of the word. Now we've seen what we can do 
when we invest in research. The rewards are probably 
immeasurable. In 1971, fewer than half of all the cancer 
patients lived 5 years beyond their diagnosis. Today it is up 
to 64 percent for adults, 79 percent, which is remarkable, for 
children under the age of 14 and since 1971, we've more than 
tripled the number of cancer survivors. That is real progress 
and it is progress that you just can't put a price tag on. 
There is no greater success and there is no greater return to 
public life or to community life, than saving lives. You can't 
quantify it. We have been made better as a whole, as a Nation, 
as a community, because of this research and this effort. But 
folks, we got miles to go to alleviate a lot of suffering.
    This year, nearly 565,000 Americans are going to die of 
cancer. That's more than 1,500 people a day or every 2 days, 
the equivalent of what we lost in New York City. It's America's 
number one killer, as I said, under the age of 85. The National 
Cancer Institute is our frontline for the fight. Lance, I'm 
very grateful to him. He helped connect me to that from my ex-
wife's battle and they are fighting so hard to move forward.
    George Weiner, a moment ago, was telling me about what they 
are doing here at Holden and how so many projects are on hold. 
They're ready to go but it takes a lot of time to take things 
from laboratory out into the marketplace and we are sitting on 
that ability to be able to move forward and we shouldn't be.
    So today's Field Hearing here in Iowa is a wonderful 
setting to really renew this commitment and understand in the 
heartland of America, how we can communicate to public 
officials and guarantee this commitment. Right here in Iowa, at 
the Holden Center, you've got world-class care, world-class 
education, world-class research but again, it is restrained by 
the lack of funding. For an incomprehensible reason and I do 
mean incomprehensible, without any party label attached to it, 
we saw cuts to the cancer research budget this year compared to 
last year's funding. It is impossible to pretend and Chairman 
Harkin knows this, you can't pretend that this is being done to 
cope with record budget deficits. It's not. There is no 
shortage of money fundamentally. There is a deficit of 
willpower and this is, if anything is, a fundamental question 
of values.
    In Congress, we measure our values in the priorities and 
choices that we live out every day in our budget. That's where 
you put your values so we're here today to state emphatically, 
it is wrong and shortsighted for the Federal Government to cut 
funding for fighting cancer. We're here because it is so 
fundamentally contradictory to the values of America that we 
can find and borrow even, maybe up to $1 trillion, for the war 
in Iraq and yet, we are $40 million shy of where we were last 
year in the President's budget in the fight. Now, Tom Harkin 
and his Committee have made a difference in that but it is only 
a difference by $9 million, folks. That's less than 1 percent 
and we should be making a commitment of least a 5 percent 
increase per year until we have found the cure to this scourge. 
So to all who come in contact with this disease, the impact of 
the research is just undeniable. What happens when you cut the 
research is, you create uncertainty in all of the centers. You 
put projects on hold--who knows whether it is the project that 
is going to be difference with one particular cancer or 
another?
    So, Mr. Chairman, there is one thing you find out when you 
talk to folks with cancer and their families, is when you get 
the result back and you hear that diagnosis, cancer doesn't 
discriminate between the rich and the poor, the middleclass. It 
is a fundamental test of our priorities and I'll tell you, the 
wealthiest people in this country, in my judgment, would 
welcome a cure for cancer before they get another tax cut.
    So Mr. Chairman, I close and I look forward to joining you 
as part of the panel here. I just say, the American spirit is 
defined by our ability to explore. We explored the human genome 
system, we explored the universe, we mapped the stars and the 
planets, we've broken through because a couple of bicycle 
mechanics went from Ohio to Kittyhawk and we took fight and it 
changed history. That's who we are. The life sciences are the 
future. We need to make that kind of commitment because in the 
end, it is that kind of commitment that defines the special 
spirit of being American. It is my privilege to be here today. 
I look forward to the testimony of those who follow and I look 
much more forward to us fulfilling our commitment to ourselves, 
as human beings and as a country. Thank you.
    Senator Harkin. Thank you very much, John. Senator Kerry, 
thank you very much and join us here at the table. Next we'll 
turn to Gary Streit of Cedar Rapids.
STATEMENT OF GARY STREIT, CEDAR RAPIDS, IOWA
    Mr. Streit. Senator Harkin, Senator Kerry, Mr. Armstrong, 
Dr. Weiner, my good friend, Shirley Ruedy, other honored 
guests, ladies and gentlemen. This is truly an honor for me to 
be here today to represent the American Cancer Society and 
offer a few brief comments on the progress that researchers 
made over the past several decades and what the promise is that 
is held for the future.
    Senator Harkin, I want to thank you for your singular 
effort on many broad issues relating to cancer care and cancer 
research. You have demonstrated that cancer is truly a 
political as well as policy issue in addition to being a 
scientific and medical one. I've been an American Cancer 
Society volunteer for almost 30 years. I'm not an incredibly 
talented scientist like Dr. Weiner. I'm not a powerful Senator 
like Senators Harkin or Kerry who can appropriate millions and 
billions of dollars to fight cancer research. I'm not a person 
of the uncommon courage and strength like that of Lance 
Armstrong but like many people in this room and across the 
country, we all want, in small way, to give a part of our life 
to helping others. When I started as an ACS volunteer in the 
1970s, the 5-year survival rate for cancer was less than 50 
percent.
    Today, as Senator Kerry mentioned, it is over 64 percent 
for adults and 79 percent for young people under the age of 14. 
Back in the 1970s, if a young man was diagnosed with testicular 
cancer that had spread to his lymph nodes, lungs and brain, he 
had no chance of survival, none. Today, that young man is 
sitting three persons to my right. Lance Armstrong survives 
today because of the breakthroughs that have been made in 
scientific research in cancer. All Iowans are honored by your 
presence with us today, Lance. The American Cancer Society has 
been working with your Foundation in Washington on many issues 
that we both care deeply about and we look forward to that 
partnership.
    I'm a little monochromatic, as my kids will quickly tell 
you, so I can only kind of do one color at a time so I chose a 
yellow tie instead of my yellow bracelet. We have a purple 
bracelet that has the word written on it, hope, and that is 
really what the research efforts that I'm going to talk about 
in a few minutes, really addresses. There are 10 million cancer 
survivors today, compared with 3 million when the National 
Cancer Act was passed in 1971. Since 1991, there has been a 10 
percent decline in age-adjusted mortality rate from cancer and 
in 2005, for the first time in our country's history, there has 
been an actual decline in the number of people dying from 
cancer. So don't let anyone tell you we're not making progress. 
The advances in research have come on many, many fronts: 
improved treatment methods, vaccines, and chemotherapies, 
unlocking the secrets of molecular transformations with cancer 
through basic research and broad-based epidemiology studies.
    As recently reported by John Neterhuber, the Deputy 
Director of the NCI, we've found that adding Herceptin to 
standard adjuvant chemotherapy significantly reduces the risk 
of recurrence in women with certain types of early stage breast 
cancer. Dr. Neterhuber also reported equally stunning results 
from the trial of vaccine that protects against two strains of 
the HPV virus that causes over 70 percent of cervical cancers, 
a disease that kills more than 200,000 each year, many in 
developing countries. As we have seen with Gleevec, Avastin, 
and Herceptin, we are now dealing with targeted therapies, 
drugs that attack the cancer itself and eliminate the horrible 
impact of chemotherapy on the healthy tissues around the site 
of the cancer. Right here in Iowa City, amazing research is 
going on in the basic sciences but as well in the applied 
sciences.
    The National Cancer Institute is conducting a trial 
involving 53,000 smokers and nonsmokers across the country to 
determine whether one of two methods is far more effective in 
detecting early lung cancer when it can be treatable. Dr. 
Weiner and the Holden Cancer Center pulled off a remarkable 
collaboration with the American Cancer Society and other 
community-based organizations to recruit a full cohort of 
participants in this study and are moving well ahead of pace.
    Despite the remarkable progress of the past decades, in the 
words of Dr. von Eschenbach, the former Director of the NCI and 
currently the Director of the FDA, ``we have been crawling and 
now we can fly,'' in referring to the progression from 
macroscopic care to microscopic medicine to molecular medicine. 
Dr. Len Licktenfeld, of the American Cancer Society recently 
wrote, where we used to treat patients with their cancers, we 
are now treating the actual cancer cell itself. Research has 
opened the era where we now understand how the cancer cell 
works and what avenues are available to reverse those changes 
and push the cell back into normality. In short, we are on the 
verge of some truly amazing breakthroughs, all of which lead me 
to four concluding themes.
    The first is, the importance of supporting and sustaining 
efforts such as those led by Dr. Weiner at the University of 
Iowa and by his peers at the other NCI-designated Comprehensive 
Cancer Centers, to translate research from the bench to the 
bedside and to help assure that all Americans have access to 
quality cancer care and treatment. It is a cruel paradox that 
many of our fellow citizens are denied the ability to benefit 
from the truly remarkable scientific breakthroughs of the past 
several years.
    The second is to support all forms of research, from basic 
science to clinical trials to translational investigations, to 
behavioral and psycho-social research that can help design the 
products that will lead all of us as Americans to get off the 
couch, to be more physically active, to get involved in the 
screening and other prevention activities that will lead to 
early detection when cancer can be treated.
    The third is to look beyond our borders and appreciate that 
cancer is a global issue. It is our moral imperative to do all 
that is within our power to share the products of research in 
the United States with developing countries around the world. 
Concurrently, the United States needs to assume a greater role 
in reducing the deadly effects of tobacco usage around the 
world, starting with the President sending the Framework 
Convention on Tobacco Control treaty to the Senate for 
ratification. As Dr. John Seffrin, the CEO of the American 
Cancer Society recently reported, 10 million cigarettes are 
smoked every minute of every day around the world. In the last 
century, tobacco use world-wide killed 100 million people. If 
left unchecked, tobacco use will kill more than 1 billion 
people in this century and if we let that happen, it will be 
the worst case of avoidable loss of life in world history.
    Finally, we must adequately fund our cancer research 
efforts. In 2003, I stood in the East Room of the White House 
at a ceremony in which President Bush paid tribute to Lance 
Armstrong for one of his many Tour de France victories. I kind 
of lost track, Lance. But as President Bush said at that time, 
to win the war against cancer, we must fund the war against 
cancer. This pronouncement was made in the midst of doubling 
the NIH budget.
    Now Congress and the administration are undermining that 
promise by not providing the funding that is necessary to 
sustain grant commitments, maintain new infrastructure, attract 
and retain talented scientists and pursue the promising leads 
generated by ongoing research. Funding shortfalls, such as the 
$40 million cut proposed this year and last year's $35 million 
cut, disrupt research efforts for years to come. Americans say 
that cancer is their most feared disease and our funding 
priorities should reflect that.
    The NCI budget amounts to $16 per American per year. 
Compare that with the $6,800 per year that we spend on our 
health care costs. Compare that to the $100 per American per 
year that gets spent on pork. It cost our country $210 billion 
this year in lost lives and lost productivity, yet we can only 
find $5 billion to support our research and cancer prevention 
issues. It is not for lack of opportunities. As Dr. Weiner will 
tell you, we are on the precipice of great breakthroughs. There 
are far more research applications worthy of funding that can 
ever begin to be funded by the NCI and the NIH. It is not for 
lack of return on our investment, as 321,000 people are alive 
today that would have died between 1991 and this morning. 
Whether measured in dollars or lives, the cancer investment 
pays off. Recent breakthroughs have set the stage for 
exponential progress if we make the right decisions today.
    Here in Iowa City, we think we play a pretty good game of 
football. I was telling Senator Harkin that it is a little bit 
like Iowa playing for the National Championship, when at the 
end of the fourth quarter, it is a tie game. Kirk Ferentz's 
team is driving down the field. The other team and I won't pick 
on Texas but I wish it were Texas--has no time outs left. We 
get the ball, first and goal on the one-inch line. We call time 
out and let the other team regroup. That is what we are about 
to do if we pull back today, ladies and gentlemen. So thank you 
for this opportunity and thank you for your support.
    Senator Harkin. Gary, that was great testimony, thank you 
very much. Now we turn to Dr. Weiner.

STATEMENT OF DR. GEORGE WEINER, DIRECTOR, THE HOLDEN 
            COMPREHENSIVE CANCER CENTER, UNIVERSITY OF 
            IOWA, CHAIR, THE STATE OF IOWA'S 
            COMPREHENSIVE CANCER CONTROL CONSORTIUM
    Dr. Weiner. Thank you very much. It is indeed an honor to 
be able to speak to you today about cancer research and our 
ability to apply the advances we make to benefit all of us. 
Many of my comments will reflect what you've already heard from 
Senator Harkin, Senator Kerry and Gary. My comments are based 
on both professional and personal experiences with cancer. I am 
a cancer physician and researcher. My research works on 
developing new approaches to using the immune system to treat 
cancer. I also have the privilege of being the Director of the 
University of Iowa Holden Comprehensive Cancer Center and the 
Chair of the Iowa Consortium for Comprehensive Cancer Control, 
a state-wide consortium composed of over 50 organizations in 
Iowa and a group of wonderful, diverse people, all dedicated to 
decreasing the burden of cancer, particularly here in Iowa. 
Finally, like many of you, I have been touched personally by 
cancer. Both of my parents died from cancer, my mother when I 
was a young teenager and my father, just a couple of years ago.
    First, some of the good news that reflects what Gary 
already spoke to you about. In Iowa, cancer deaths are 
decreasing. Between 1996 and 2001, there was a significant drop 
in age-adjusted death rates and this progress is continuing. We 
estimate that there are 1,500 Iowans alive today who would have 
died of cancer if no progress had been made during this 5-year 
period. The most dramatic improvement has occurred where we 
have invested most heavily in research and where we have 
implemented new approaches to early detection and treatment.
    Mortality in Iowa from breast cancer dropped 17 percent and 
from prostate cancer, dropped 19 percent during this period of 
time. However, I don't need to tell anybody here that this 
progress is not fast enough. Cancer still kills over 6,000 
Iowans each year and research is the key to progress and must 
be supported. Every day I'm faced with the fact in my job at 
the Cancer Center, that there are outstanding young physicians 
and researchers with outstanding ideas that are not being 
supported. Currently only about 15 percent of the grants that 
are approved by peer review committees at the NCI receive 
support and there are just unbelievable numbers of outstanding 
ideas that are going untested. In addition, we must bring 
advances made possible by research to the people who need them.
    The American Cancer Society estimates that up to 50 percent 
of today's cancer deaths could have been prevented if all of us 
had access to and took advantage of state-of-the-art cancer 
prevention, early detection and therapy. At the top of this 
list is tobacco use, which is far and away the greatest cause 
of preventable cancer death, as Gary has reviewed with you. Our 
efforts to discourage tobacco use here at home, particularly 
among our youth, remain highly inadequate. Tobacco-induced 
diseases, including cancer, are more common among those with 
fewer financial and social resources. There are other, 
unacceptable disparities in the burden on cancer. Cancer 
screening is significantly lower among underserved ethnic 
populations and this leads to more advanced cancers that are 
harder to treat when they are found. Access to high quality 
care for cancer survivors is extremely uneven and this is an 
important focus of the Lance Armstrong Foundation and also 
needs attention in Iowa and across the country.
    Fortunately, there is growing recognition of the enormous 
value to health and the economy that would result if these 
disparities were addressed and more cancers were prevented, 
detected early and treated effectively, a concept broadly known 
as cancer control. The Centers for Disease Control, the 
National Cancer Institute, State Departments and Public Health, 
American Cancer Society and many other organizations are 
increasing their commitment to cancer control. The Holden 
Comprehensive Cancer Center provides highly specialized multi-
disciplinary individualized care and follow-up for Iowans with 
cancer irrespective of their ability to pay. In addition, the 
Cancer Center has made major commitments to Iowa's statewide 
cancer control efforts. This fall, the Directors of the NCI 
designed cancer centers will release a blueprint that will 
outline how the academic cancer centers, such as ours, as a 
whole, can contribute even more to reducing the burden from 
cancer across the Nation.
    Sections of this report will focus not only on research but 
on prevention, early detection, treatment, survivorship, and 
dissemination of the research advances to the community. While 
the profile of cancer control is increasing in the Nation and 
in Iowa, there is little consensus on who should coordinate and 
pay for cancer control efforts. Financial support for cancer 
control is fragmented and inadequate. In Iowa, our consortium 
has established a comprehensive cancer control plan initially 
in 2003. We have just revised this plan but because of a lack 
of resources, we have been unable to implement many aspects of 
this plan.
    In summary, as a cancer physician, researcher and 
administrator, I can state unequivocally that we are making 
progress against cancer faster than ever before. Thousands of 
our loved ones of all ages are here today because of the 
progress we have made yet we still have such a long way to go. 
We need to redouble our investment in cancer research and in 
cancer control. These efforts will require teamwork, 
commitment, resources, and coherent policies that encourage 
researchers, public health officials and leaders in academia, 
government and the private sector to all work together.
    With apologies to Mr. Armstrong for my technical language, 
I would like to conclude by using the bicycle as an analogy for 
the fight against cancer. The power of knowledge provided 
through research is represented by the back wheel of the 
bicycle. Funding for research helps us find the right gear and 
allows us to peddle as effectively as possible. Cancer control 
allows us to direct the power of that knowledge in the right 
direction and is represented by the front wheel of the bicycle. 
To benefit from our advances in cancer research, we must steer 
effectively so that the advances we have made propel us towards 
our goal. Finally, we must keep the pressure off both in the 
front and back tires so our effort is not wasted and we must be 
sure that we are all working together and in a coordinated 
fashion if we are to win the race against cancer. Thank you 
again for your wonderful support.
    Senator Harkin. Shirley Ruedy, welcome.

STATEMENT OF SHIRLEY RUEDY, AUTHOR, THE CANCER UPDATE 
            COLUMN IN THE CEDAR RAPIDS GAZETTE
    Ms. Ruedy. Senator Harkin asked me a few minutes ago just 
to speak from the heart and I said, Senator Harkin, I do speak 
from the heart but I am a child of the printed page and I can't 
get up in front of hundreds of people and just wing it.
    Maybe Lance Armstrong can, but I can't. Anyway, what I do 
want to say prior to my planned remarks is that cancer happens 
to a lot of celebrities but the best thing that has happened to 
the war on cancer in a long time is Lance Armstrong. He is one 
of the few celebrities willing to cash in his cache on the war 
of cancer. He is putting in not only his name and his fame but 
his time and his money and making sure that beating cancer is 
on the minds of every American, from the man on the street to 
the man in the White House.
    My story, I've had a strange odyssey in the land of cancer. 
Family members for years dropped like flies from the disease--
aunts, uncles, cousins, and then my oldest brother was 
diagnosed with a rare male breast cancer. He was 48. Knowing 
nothing about cancer at the time, I thought it was just a fluke 
but it was a red flag. In 1979, on the 14th of November, a 
magnificent, sunny day, I learned I had breast cancer. I was a 
pre-menopausal 43 years old. I had a mastectomy. The cancer was 
estrogen negative, odd because most breast cancers are estrogen 
positive, depending upon that hormone for growth. Another red 
flag. Fast forward to 1994. My husband and I planned to go out 
to dinner on November 14 to celebrate 15 years of my being 
cancer free. Instead we were sitting in the oncologist's 
office, hearing for the second time that I had breast cancer. 
The gods of irony must have been rolling in the aisles except 
now, the doctors thought it was metastatic. We drove, white-
lipped and white-knuckled, to Mayo Clinic, to my friend, Dr. 
Lynn Hartman, who believed the cancer was primary. I had a 
second mastectomy. Because the tumor had gone to the chest 
wall, 4 months of chemotherapy and 7 weeks of radiation 
followed. Fast forward to 2005. Post-menopausal bleeding led to 
a D&C at Mayo. The surgeons and I agreed, no hysterectomy 
unless it was cancer. I woke up and my husband told me they had 
done a hysterectomy. It was endometrio uterine cancer. I was 
stunned. At age 69, the score was Shirley zero, cancer three. 
As is with so many people, I turned to God. I said, ``What is 
this, God? It seems to me I'm taking somebody else's turn 
here.''
    ``Let's lay off Shirley for a while.'' But God smiled. I 
know he smiled because only 5 percent of endometrio cancers are 
caught that early, Mayo said, and the surgery was considered 
curative. When I was first diagnosed with cancer, I became 
curious about this disease that could take my life so I went to 
the library and I took out a book and then another and another 
and I've been reading on cancer since 1979. Not like Dr. Weiner 
reads but--I came up with the idea of a newspaper column. What 
the American public needed, I felt, was a regular platform on 
cancer, not just a mediocre story that flashes across the sky 
when a study is released. The column needed to illuminate not 
just the science of cancer but the emotions. Anyone who has 
been touched with cancer knows that the body is just part of 
the picture. Your emotions are rolling around like the eye of a 
hurricane. Those who care for you are in tumult. There is no 
manual on how to handle cancer. The Gazette's Managing Editor, 
Mark Bowden, went out on a limb and started running Cancer 
Update on September 5, 1991.
    Response has been tremendously gratifying. Readers trust me 
for I have walked the road. The medical community trusts me for 
I value accuracy and honesty above all else. But I am here to 
tell you today that the only reason I am here at all today is 
because of the National Cancer Institute and the American 
Cancer Society. In 1975, I joined a study that they jointly 
sponsored to compare methods then available for the early 
detection of breast cancer: mammography, thermography, and 
clinical examination. It was the fifth and final year of that 
trial, that my breast cancer was found and I want to make this 
abundantly clear. If it had not been for that research study, I 
would have died because I never would have found that breast 
cancer in time on my own. What I also know now is that all 
those red flags, male breast cancer in the family, pre-
menopausal breast cancer, cancer in both breasts, estrogen-
negative cancer, all pointed to hereditary breast cancer and 
the BRCA I and BRCA II genes, only identified through research 
since that long-ago day in 1979, which brings me to an issue of 
profound significance in my mind: research. As a cancer 
columnist, I know that at the beginning of the 1900s, almost no 
one who had cancer ever lived to tell about it.
    Now, in 2006, it has soared to a 64 percent survival rate, 
as has already been pointed out. This is a phenomenal 
achievement. As it stands today, 1 of every 3 Americans will 
die of cancer and 3 and out of every 4 households will be 
affected by it, either directly or indirectly. Cancer is the 
king of dread in the American mind and our Government's 
proposed budget for 2007 has slashed an incredible $40 million 
from the National Cancer Institute. The cost of research is 
cheap when you equate it to the increased growth in the economy 
because of lives not lost, productivity gained, and health 
costs saved. Crucial studies that save lives will not be funded 
with the budget cut. Bright, young researchers will not find 
jobs because of staffing cuts and we will have a brain drain to 
countries who will fund our best and our brightest.
    I hope that Congress will approve the budget amendment 
proposed by Democratic Senator Tom Harkin and Republican 
Senator Arlen Specter. It will restore the $40 million to the 
National Cancer Institute, which already suffered a devastating 
cut of $31 million. We have 10 million cancer survivors alive 
today. Outstanding survivors like Lance Armstrong and average 
Americans like me. We all owe our lives to men and women in lab 
coats. Indeed, we have to realize that research is not our main 
hope--it is our only hope.
    Senator Harkin. Thank you very much, Shirley, for that and 
just thank you again for your example of courage. It means a 
lot to all of us. Now, what can I say about Lance Armstrong 
that hasn't already been said, I guess. You know, John Kerry 
and I--I guess people in our positions, we meet a lot of people 
who have obtained a celebrity status, whether they are in 
athletics, the performing arts, the business world, politics of 
course, and you wonder sometimes, what are they doing with 
their position?
    What are they doing with the fact that people to look to 
them for inspiration, look to them for leadership, look to them 
for some kind of guidance? Martin Luther King, Jr.--Lance once 
made this statement. He said that life's most important and 
persistent question is what are you doing for other? Lance 
Armstrong has answered that question in a very powerful way. He 
is using his status, the fact that he is the athlete of the 
decade, the fact that he has shown great courage in surviving 
cancer and going on to win the Tour de France seven times. Yes, 
people do look to him for guidance. They look to people like 
Lance Armstrong for--you know, what are you doing?
    What Lance Armstrong is doing is setting up the Lance 
Armstrong Foundation. What he has done is to focus the Nation's 
attention on winning the race against cancer. We all know, 
since the first time I met Lance a few years ago, I could see 
that he was focused on two things: winning the Tour de France 
and winning the war against cancer. Lance Armstrong showed that 
no obstacle was big enough for him to overcome to win the Tour 
de France and I'll bet you no obstacle is going to be big 
enough for him and the Lance Armstrong Foundation and all of us 
working together to win the war and the race against cancer. 
Lance Armstrong.

STATEMENT OF LANCE ARMSTRONG
    Mr. Armstrong. Well, I'm not going to wing it. Thank you, 
thank you. It is a pleasure to be here. This is my second trip 
to Iowa and it's a special place, special bike ride, special 
experience. I think I've said many, many times how--I guess I 
am winging it for a second here but this has been something 
that I really didn't expect. The atmosphere and the attitude 
around RAGBRAI--there is some debate on how we say it but 
RAGBRAI--never, just a little editorial here, I've never seen 
people drink beer and ride bikes at the same time.
    Cyclists tend to be a little geeky and they worry about the 
tire pressure and how long the ride is tomorrow and where the 
hills are, meanwhile you people ride along and worry about the 
next town, where the beer garden or a pork chop is. I mean, 
beer and pork chops on a bike? I love it!
    Anyways, Senator Harkin, thank you for having this hearing 
today. This is huge. I want to thank you for your tireless 
efforts in the U.S. Senate to support cancer research, 
prevention, early detection, treatment, and survivorship. I 
know, like so many millions of Americans, you and your family, 
as you just said, have been personally affected by this 
disease. As the founder of the Lance Armstrong Foundation, it 
is indeed an honor for me to appear here with such a 
distinguished panel. This October 2 marks the tenth anniversary 
of my cancer diagnosis and as I reflect back on what has 
transpired over the past 10 years, I realize how much my life 
has changed since October 2, 1996. At the time, I knew nothing 
about cancer. I had no idea how many people were diagnosed with 
cancer each year. I had no idea how many people were likely to 
be diagnosed with cancer in their lifetime. I had no idea how 
many people are killed by cancer each year. I had no idea what 
the chances were to survive a cancer diagnosis. I had no idea 
how many cancer survivors are living with, through or beyond 
cancer.
    But today I know. I know that 1.3 million people will be 
diagnosed with cancer this year, 16,000 in the State of Iowa. I 
know that 1 in 2 men and 1 in 3 women will be diagnosed at some 
point in their lives. I know that over half a million people 
will die from cancer this year in the United States, 6,300 of 
those from Iowa. While these numbers are sobering and in some 
ways, impossible to comprehend, they represent incredible 
advancements since 1971, when President Nixon declared war on 
cancer and signed the National Cancer Act into law. In 1971, 
only 3 million cancer survivors were living in the United 
States. At that time, cancer was largely a death sentence. 
Thirty-five years later, as everybody here has said and I think 
we all need to recognize, we have made remarkable progress.
    There are now more than 10 million cancer survivors living 
in the United States today. But today, our goal and our mission 
must be to redouble our efforts until cancer is truly a chronic 
disease that you can live with rather than die from. After I 
was diagnosed, I founded the Lance Armstrong Foundation, a 501-
C(3) national, nonprofit organization based in Austin, Texas. 
Sorry about the football joke but--I'll win that debate today, 
I promise. LAF's mission was to inspire and empower people 
affected by cancer. We help people with cancer focus on living. 
We believe in unity of strength, knowledge is power and 
attitude is everything. From the moment of diagnosis, the Lance 
Armstrong Foundation provides the practical information and the 
tools that people affected by cancer need to live their life on 
their own terms. We are committed to making cancer a national 
priority through our advocacy initiatives. I fear that too many 
people, especially those in positions of power in Washington, 
DC., do not share this view.
    Everyone says they support cancer research, of course and 
programs and they are willing to do whatever they can but as we 
speak, our elected officials and our leaders who provide the 
resources that the experts say are necessary to effectively 
beat this disease. Actions speak louder than words. It 
mentioned earlier--you know, I sometimes forget about that 
visit to the White House--I think that was 2001.
    I looked at the President and I'm going off the cuff here 
but I said, I think this ought to be a priority for our country 
and this is a President that lost, at a young age, lost a 
sister to cancer. I looked at him and I said, I think this 
needs to be a focus and a priority and he said, in order to win 
the war against cancer, we must fund it. That's the kind of 
stuff that we love to have on tape. In life, we all must be 
held accountable and thank you for reminding all of us of that 
quote. That's powerful. This State will be in that very same 
position in 2008, when all these guys come through again.
    Just keep those cameras rolling when they come through, 
okay? Don't turn them off. Here is the bottom line. The bottom 
line is that people have become complacent about cancer. It is 
an old disease. It's not a priority in Washington because 
Members of Congress do not believe cancer is a priority back 
home, some Members. That has to change. As we've heard, there 
is too much hope, too much progress, and too much promise to 
accept anything else. Simple steps, steps we should be taking 
today could virtually overnight cut cancer deaths by one-third, 
by improving access to early detection, screenings, existing 
treatments, all of this stuff to the people that slip through 
the cracks and are diagnosed too late or don't receive the best 
treatment. We could reduce cancer deaths by one third. Think 
about it. Almost 200,000 people a year could be saved: a 
friend, a child, a sibling, a parent, a grandparent--all will 
be needlessly lost to cancer.
    The Centers for Disease Control and Prevention support a 
number of programs that will help us reach these people and get 
them services they need. Unfortunately, these Federal programs 
are woefully under funded. The CDC Comprehensive Cancer Control 
program supports a collaborative process through which a 
community and its partners pool resources to promote cancer 
prevention, improve cancer detection, increase access to health 
and social services and reduce the burden of cancer. These 
efforts will contribute to reducing cancer risk, detecting 
cancers earlier, improving treatments and enhancing 
survivorship and the quality of life for cancer patients. Every 
State, including Iowa, has spent time and energy pulling 
together the key people to develop the plan that best meets the 
needs of their citizens but to effectively implement these 
plans, we need to fund these plans. This year, just over $16 
million was available to implement the plans of all 50 States, 
the District of Columbia, the U.S. Territories, and Native 
American Tribes.
    I applaud you and Senator Specter for adding an additional 
$5.1 million in the Senate LHH appropriations bill for this 
very important program. Unfortunately, too few of your 
colleagues were willing to make cancer a high enough priority 
to allow this program to be fully funded. Likewise, the CDC 
provides access to critical breast and cervical cancer 
screening services for underserved women throughout the United 
States, including the four U.S. Territories and 13 American 
Indian/Alaska Native organizations.
    These types of early detection programs have proven to 
reduce mortality and improve survivorship but due to funding 
limitations, the CDC estimates the program currently only 
reaches 20 percent--just 20 percent--of all eligible women, 
aged 50 to 64. If we increased our investment in this program 
by $47,000 million, we could serve an additional 130,000 women. 
We already know how to do so much more than we are doing. We 
need to implement what we already know. It is the difference 
between what we know and what we do. We have to make cancer a 
national priority and make the investments that save lives. 
Again, that number was startling, the doctor mentioned, of real 
time savings of $210 billion. I think everybody in this room 
can understand math enough to know that $5 billion versus $210 
billion speaks for itself.
    Last year, for the first time since 1970, Congress passed a 
funding cut for the National Cancer Institute, a few years 
after President Bush told me at the White House, as I just 
said, in order to win the war, we have to fund the war. On the 
heels of that cut, the House of Representatives has proposed 
another $40 million reduction for cancer research at the NCI 
this year and the Senate is only slightly better, proposing a 
$9 million increase, which fails to keep pace with medical 
inflation. These funding levels are the direct result of 
Congress, in spite of their efforts by Senator Harkin and 
Senator Specter, failing to provide adequate resources for 
medical research and other health programs. This isn't how you 
treat a priority in this country.
    This is a time when we should be significantly increasing, 
not decreasing our investment and promising extraordinary 
Federal research opportunities. Federal investments in cancer 
research have yielded remarkable results, as we've all said. 
Several drugs developed and are tested by the NHI supportive 
scientists have proven effective in treating and sometimes 
preventing certain types of cancer. NCI designated 
Comprehensive Cancer Centers, like the Holden Comprehensive 
Cancer Center here at the University of Iowa, are doing great 
work, serving as hubs for cutting edge research, cancer care 
and education for healthcare providers.
    We must do all we can to protect our cancer research 
enterprise and maintain the current pace of discovery by 
increasing our investment in the National Cancer Institute's 
research portfolio. It is clear to me that the only way to make 
cancer a national priority is for the people fighting this 
disease to join that fight or their loved ones. I am more 
determined than ever to lead this effort.
    Now that I've retired from cycling--I think--I get asked 
all the time, what are you going to do? My friends and my loved 
ones know that I couldn't just sit around and be retired. I 
need a fight. I'm a fighter, I was always a fighter. I fought 
to win seven Tours and I am proud of that.
    But I get asked all the time, what are you going to do so 
you don't get bored? Well, the answer is this: the answer is a 
room like this and the answer is 3 days in Iowa and the answer 
is next year, 7 days in Iowa.
    The answer is we have something here that we are discussing 
that I don't even need to remind people that we'll make 7 
tours, 20 tours, 100 tours, looks so incredibly small. This is 
my priority. This is the priority of this room and I truly 
believe it is the priority of the two distinguished Senators 
sitting to my right. We have to do it. Now is not the time to 
slow down. This is something that I take very seriously and if 
it is my time and attention, it is a great fight and I am fully 
committed and I truly believe that we will make a difference. I 
never entered a race to lose and I'm not entering this one to 
lose. We have to be realistic. We have to understand what our 
goals are and clearly state those but we have to make progress 
and we have to hold our leaders accountable. So when they come 
through this great State in 2008, folks, ask them. What's your 
plan?
    In case you forget, I'll be back here next year to remind 
you.
    Senator Harkin. Thank you very much, Lance. Thank all of 
you. Wasn't this a great panel? It was just a great panel!
    Well, I just have a couple of questions. I'd like to get to 
an open mic though, because I do want to hear from some people 
here this morning. I am compelled first, just again, Lance, 
just off the top of your head, just sort of, through your 
Foundation, you've been following what we've been doing in 
cancer. I thank you for your prodding. There is no reason that 
we're not funding this the way we ought to be funding it, 
absolutely no reason whatsoever. But--and I'm glad you 
mentioned the Comprehensive Control Program. Dr. Weiner runs 
that here in the State of Iowa and the fact that we are under 
funding it--I guess--I'm just musing here. All the things you 
see out there, what would be a priority? I mean, what would be 
something you would like to, in your Foundation, would really 
like us to really start focusing on? Is there something out 
there that is kind of a priority?
    Mr. Armstrong. Without being a scientist but just being a 
citizen, if when I wake up, if I had a choice between--let's 
just say I was starting the Tour de France and I had a choice 
between a 14-pound bike to climb the mountains or a 20-pound 
bike. I don't have to tell you which one I would choose. They 
are both safe. I would definitely choose the 14-pound bike. 
It's faster, it's lighter, and it's better. That's an easy 
choice; an easy decision and an easy thought process. To me, 
the ability to immediately save 200,000 lives has to be a 
priority. It's not a question of--and as much as I love 
research and I believe that that has to be totally accelerated, 
this is stuff we know.
    A few months ago, I was in Harlem, at a cancer center and a 
guy named Dr. Freeman, who runs this cancer center in Harlem, 
he has lived almost his whole life in Harlem and totally 
committed to the people there, a beautiful man. He chaired the 
President's Cancer Panel when I first came on to it. He said to 
me, ``Lance.'' He speaks very slowly but it is just music when 
he talks. He said, Lance, it's just the difference and as I sit 
here, it's the difference of what we know and what we do. If 
that delta between the two is 200,000 lives. So just applying 
what we know--and again, these are people that they didn't do 
anything wrong. They were born into their situation or to their 
neighborhood. They deserve better. Just by giving them what I 
would receive or what you would receive, we save their lives. 
That delta has to come down and that delta can come down, just 
by applying the information and the technology and the data 
that we have. I say all the time, it's almost like a Cancer 
Bill of Rights, that we are all, as Americans--the greatest 
country in the world, the most progressive, smartest country in 
the world.
    This is the stuff we can do. We can give that to our 
citizens. Beyond that, of course, is the realm of science and 
research. That is also critically important. That is an issue 
of funding, which to me, I see a lot of times when you talk to 
people at the NCI, imagine if you had a great program that was 
being cut or wasn't being funded. What does that do to a team 
of young scientists? Well, it kills their morale and for 
anybody who has ever been on a team, you have to have morale. 
If it is a team at RAGBRAI, if it is a team trying to win the 
Tour de France, if you don't have any money or you don't have 
the resources, then you don't have morale and that is a deadly 
thing.
    Senator Harkin. Thanks, Lance. Just one thing. Dr. Weiner, 
would you--before we came up here, I had read some of the 
things Dr. Weiner had written and as you know, we just had a 
big battle on stem cells. I think I mentioned that in my 
remarks. We'll be back on that, by the way, next year.
    Stem cell research, embryonic stem cell research has always 
been looked upon as culling so much hope for juvenile diabetes, 
Alzheimer's, ALS, spinal cord injuries, and a host of other 
neurological disorders but it has now become clear that there 
is a nexus between embryonic stem cell research, and cancer. So 
Dr. Weiner, would you just again, enlighten all of us a little 
bit about that connection?
    Dr. Weiner. Well, there is lots of research taking place 
now, on a concept known as cancer stem cells. This concept is 
based on the understanding that every cell in a cancer can't 
divide forever. There are really only a very small percentage 
of those that really are responsible for the cancer continuing 
to grow and spread. These may look very different than the 
regular cancer cell. Many of our treatments today are designed 
to treat all of the cells in a cancer. Perhaps what we should 
be doing is looking more carefully at these cancer stem cells 
so we can target those guys who are responsible for the 
continued growth of the cancer. This growing recognition that 
stem cells, whether embryonic or cancer stem cells, may have 
lots of similarities. So by studying embryonic stem cells, I 
think we will learn more about the nature of the cancer stem 
cell and hopefully learn to develop new, more targeted 
approaches that nip those cancers in the bud, right at the root 
of where they are growing.
    Senator Harkin. Again, I want to thank Gary, you, and the 
whole American Cancer Society for all your great leadership in 
this area but also in being in the forefront of the battle for 
stem cell research. We thank you very much for that.
    I'll turn to John for a question and then I really want to 
get an open mike.
    Senator Kerry. I do too and I want to try to move there as 
quick as I can. Just one question. Shirley, first of all, your 
testimony was just superb and so personal. I'd like to ask you 
and Dr. Weiner, just really compactly, for a lot of Americans 
listening when they sort of hear, well, we need more money. How 
is the money really going to make a difference? We're spending 
a lot of money. Are we really getting something for it, 
etcetera. Just in the shortest terms, if you were given an 
instant to persuade somebody, Shirley from the patient 
perspective and Dr. Weiner from the research perspective, what 
is the additional money going to bring to people, in your 
judgment?
    Dr. Weiner. First of all, given that the fact that 40 
percent of us are going to get cancer, I would argue that we're 
not investing a lot of money. It's the equivalent of 5 cents 
per person per day in the United States, is our investment in 
cancer research. That being said, I think what we are investing 
in is hope and that hope is not a false hope. We are making 
progress and the speed of progress is going to be dependent on 
our investment. So we're going to make progress against cancer. 
We have--many of the people out here are active investigators 
in the Cancer Center and they are not going to quit. Their 
ability to make progress and to bring those advances to people 
is going to depend upon how much we invest in it. So you invest 
your money in a place where you can get a return and I can't 
imagine a better place to get a return than cancer research.
    Senator Kerry. You said earlier that there are a lot of 
projects, right on the cusp, that you can't--can you just share 
quickly some of what----
    Dr. Weiner. Taking a laboratory advance and turning it into 
a promising treatment is very difficult and very challenging 
from an investment point of view. To make a material that you 
might test as a treatment that has passed all the testing to be 
safe and effective, takes millions and millions of dollars. 
There is a bottleneck and there are many wonderfully promising 
treatments, again many being worked on by people here today, 
that we can't get through that bottleneck. We can't get them to 
the point where we can even test them in patients, much less 
know if they work. So they are just sitting there, waiting. 
There are many of the treatments we have today, which are 
promising, which had to wait in line for a long time before 
they were able to be used. One of them is a medication known as 
Fludara that is very effective against lymphoma. It sat for a 
long time before people could figure out how to use it and make 
it useful.
    Senator Kerry. Thank you very much.
    Senator Harkin. Thanks, Senator. Anybody else want to 
respond to that? Shirley?
    Senator Kerry. Shirley was about to.
    Senator Harkin. Wing it.
    Ms. Ruedy. It's so hard. I would like to see Medicare 
equitable to cancer patients for funding the drugs that they 
need. Someone told me the other day that they had been in a 
clinical trial and then in the course of it, went on Medicare 
because of turning 65 and the drug that he had been taking was 
no longer paid for because it was not specific to the type of 
cancer that he had, bladder, but could be used for other 
disorders as well, so they wouldn't fund it and I think that is 
grotesquely unfair. Also, Medicare does not cover compression 
sleeves for women who have lymphedema as a result of breast 
cancer, as I do, things like that. If I could have a dream 
scenario, and touching on the topic of implementing the things 
that we already know, it would be for the United States to have 
to enforce a Federal ban on smoking in public places.
    Senator Harkin. Shirley, you can wing it any time you'd 
like.
    Ms. Ruedy. Many countries have, including--I don't even 
know if I'm pronouncing it correctly. Bhutan? In Ireland? For 
crying out loud, if Bhutan in Ireland can, it seems to me the 
United States of America can.
    Senator Harkin. Bhutan in Ireland! That's good.
    We'll try to get out to the audience. On my left is Nathan. 
He has the mike and over here is Beth. We have a mike. Just try 
to raise your hand. I just asked for the record, that unless 
your name is Jones or Armstrong, could you just spell it if it 
is a complicated name. Spell it for the record just so that our 
recorder gets it correctly. So I'd just ask if anyone has any 
questions for our panel, any observations? Here is a man right 
over here. Nate? Right back here.
    Mr. Sodak. My name is Jack Sodak and to the Senators, as 
someone who writes a lot of letters to my public officials, I 
was wondering what we as voters can do specifically to let you 
and your colleagues know that we need--this needs to be a huge 
priority to fund our cancer research and to Lance Armstrong, 
when are we going to see you run for Congress?
    Mr. Armstrong. I was strongly advised not to by the guys on 
my right.
    Senator Kerry. You should have added, ``from Iowa.''
    Senator Harkin. We're going to adopt him here. We're going 
to bring him to Iowa. What can you do? Well, that's a question 
we always get asked about a lot of things like that. We just 
have to network, grassroots work, I love grassroots types of 
organizations. We've got a lot of them out there that we have 
to network with and understand and get them to understand, just 
like Lance said, that this kind of begins with who is in office 
and what they are supporting.
    So these grassroots networks, whether it is the Cancer 
Society or the Parkinson's Network or the Lance Armstrong 
Foundation, they're out there and we've got to work through 
those organizations to build up that kind of pressure. It's got 
to be on the State level, for people who represent you at the 
State level, as well as the National level. It's really got to 
come up, from the bottom up. Sooner or later, Congress 
responds. Sometimes more later than not. But they will respond 
to the pressure and I think what has happened with the funding 
for NIH over the last couple years, I'm sensing that people are 
saying this is not the way we want to go and we've got to hold 
people's feet to the fire. It's not--let me just add this, it's 
not just how they vote or what they do on a specific funding 
measure.
    See, everything that controls what we do on Appropriations 
is set by the budget. It is what you vote and the budget 
controls everything. So it is not just how--somebody said, well 
gee, I'm all for cancer research and stuff like that but gosh, 
the budget doesn't allow me to do it. Well, how did you vote on 
the budget? What did you do when the budget came along and we 
had a minus?
    Senator Specter and I had a $7 billion amendment on the 
budget, to add $7 billion to this bill. We won it. We got 73 
votes. That's pretty bipartisan, 73 to 27. Well, why did we 
have to do that? Because it wasn't in the budget. We had to 
overcome the budget to do that and then we've lost it and we've 
come back, as you've heard others say, we're now back at about 
a $5 billion level. I just say that. Work through grassroots 
organizations to build up the pressure on people in office and 
hold their feet to the fire. Like Lance said, you've got to 
hold their feet to the fire. I don't know if John's got any 
other observations or not.
    Senator Kerry. I'd be very blunt about it and I don't mean 
to date myself but you go back to 1970, right after I got back 
from Vietnam, many of us became involved in something called 
the Earth Day and we still have it but not at that level. What 
happened is, suddenly something bubbled up and it bubbled up 
because of activists and energy and I think that is part of 
what Lance is doing right now. That bubbling up came to a head 
on one single day in April 1970, when 20 million Americans came 
out into the streets of our country and said, we want a change. 
We're tired of seeing the Cuyahoga River in Ohio light on fire. 
We're tired of seeing our families live next to a toxic waste 
site in which they get cancer from the water they drink, 
etcetera.
    The result of that was not just to go out and say, like you 
are all here today, I'm concerned. It was to translate that 
concern into action--and disdainful as it may seem to you and I 
know it does to many people--you look at the political process 
and it just looks awful. It is dysfunctional, it's broken. But 
the way you fix it in a democracy is to actually go in and get 
your hands dirty and sweat it out a little bit and do the work. 
The work is holding those people in office accountable. What 
happened in 1970 is, they targeted 12 Congressmen with the 
worst voting records on the environment and 7 out of 12 of them 
were beaten in the next election. What did that do? It 
unleashed the floodgates.
    That's when we passed the Clean Air Act, the Clean Water 
Act, the Safe Drinking Water Act, the Marine Mammal Protection 
Act, the Coastal Zone Management Act and that's when Richard 
Nixon signed the EPA into existence. We didn't even have an EPA 
until then. We've lost that accountability and what we need now 
is for people to take this concern, just as Lance said, take it 
into the voting booth and if they're not with you on the 
budget, vote them out. Kick them out and create the 
accountability.
    Mr. Williams. Good morning. My name is Dick Williams. I am 
a urologic oncologist here at the University of Iowa. I want to 
make a couple of comments. First, thank you all very much for 
your commitment to cancer and curing it because that's exactly 
what we are trying to do and we need your help to do it, so 
thank you so much. I'd like to mention a couple of things. You 
heard already the story about testicular cancer not being 
curable years ago and now it is.
    I was a resident in my training in 1970 and during that 
period of time, almost every young man I saw with testicular 
cancer died. It was painful. I couldn't do anything to help 
them. I could remove their tumor but I couldn't cure the 
metastases and it was because of a urologic oncologist, John 
Donahue, and because of the medical oncologist, who in fact, 
treated you, Larry Einhorn, who, Larry is, in fact, a UI 
graduate, who took a chance and took a new drug, Platinum, and 
directly translated it to the patient, that we now can cure 
cancer, testicular cancer. Those are the kinds of things that--
the point I'm--I want to make--is translation, is where the 
money needs to be put to some degree. We need a lot of the 
things you've mentioned today.
    Those of us that are trying to get the laboratory to 
produce things, which I have a wonderful group of laboratory 
people, researchers, Ph.D.s that are working on cancer 
research. They have some new drugs. They have some new 
vaccines. Getting them to the patient is the hardest thing for 
us to do. One, to get the money to produce the new vaccine that 
they've produced for us and two, to get it approved and then 
finally to the patient. If I were to ask you to do one thing 
for us, help us get the translational research dollars back in. 
They are not as much as they should be. Finally, as we talk 
about young researchers, as we talk about people trying to get 
grants today to do fundamental cancer research, we used to fund 
in the range of 22-25 percent of the grants. That's not a large 
number but okay, you pick the best grants. Today it is 12-14 
percent, depending on which group you're in. Folks, that's not 
going to cure cancer. It's not going to cure a number of the 
diseases we're out there trying to treat. So we need your help. 
We're going to stand behind you and thank you very much for 
being here.
    Senator Harkin. I've often likened research, basic research 
as--you have 10 doors that are closed. The answer that you are 
looking for may be behind 1 of those 10 doors. If you're only 
going to open 1 door, what are the odds? If you open 2 doors, 
what are the odds? If you open 5 doors, 8--you get the picture, 
right? Right now, we're opening 1 out of every 7 doors, 
basically, in cancer research. So what are the odds? That's why 
we need to do more of this research and get more of it out 
there. I'm concerned--back to your question about what can you 
do, there is a group called Coalition for Sensible Priorities.
    You can go on the web and find it. They are here in Iowa, 
they have an Iowa group. I think they have pointed out, if 
you're talking about research, people say, well we've put all 
this money into medical research and we still haven't found a 
cure for cancer. Well, look at it this way. In the last 3 
years--in the last 3 years, we have spent more money on 
military research and development than we have on all 
biomedical research in the last 100 years. We need better 
priorities, you say. That's where the money is. We need better 
priorities. Thank you. I just wanted to point that out.
    Senator Harkin. I don't know--someone back here. Here, 
Beth?
    Off Mic. Senator, you only have time for one more question.
    Audience Member. Since you mentioned the stem cell 
research, I was wondering also about using umbilical cords 
because I had a baby 10 months ago and I asked and no one 
seemed to know where it was going. So how, if it could be used, 
how do you ask that it be used for some kind of research?
    Off Mic. Who do you want to answer?
    Audience Member. Probably one of the Senators. How do you 
ask to have the umbilical cord used for research or are they 
already being used for research?
    Dr. Weiner. The fact is, in part because we don't have 
funding to support as much of the research as we'd like to do, 
we can't use all of the cells from all of the umbilical cords 
that are available. So we do research with those and some of 
them are now being used, actually, for bone marrow transplants 
in children with cancer. But there are more umbilical cords 
than we are able to take advantage of right now, to be honest. 
Perhaps we can talk about it later.
    Senator Harkin. Did we have one more? Did you have one?
    Mr. Lucy. Nick Lucy. Lucy as in I Love, if you want to 
spell it that way. A quick observation. You folks are here 
today to remind us to get a perspective on the war on cancer 
and we heard a lot about that there is not enough funding and 
money available. If we are fighting a war on cancer, I would 
suggest that you go back to your colleagues as veterans in the 
Senate and military veterans and remind them if we're going to 
fight a war on cancer, we should apply the same philosophy as 
when we went into Iraq. We did not ask how much it was going to 
cost, we just did it and I suggest we do the same thing with 
cancer. Let's just do it!
    Senator Harkin. We have time for one more before we have to 
finish.
    Ms. Pasker. Hi, I'm Dana Pasker and mine isn't a question, 
it is just a thank you. My dad also has breast cancer and he 
was diagnosed in 2001. As of today, he is under control and I 
think that if there wasn't the research that he would have been 
gone a long time ago. So thank you.
    Senator Harkin. I'd ask any of our panelists, anything else 
you would like to say?
    Mr. Armstrong. Just a quick invitation. On September 20, 
10,000 American Cancer Society volunteers and survivors are 
going to be on the Hill, asking Congress to make good on some 
of the promises we talked about today, so we'd love to see all 
three or all of our panelists there with us, joining in and 
delivering that message.
    Senator Harkin. Good for you! September 20.
    Dr. Weiner?
    Dr. Weiner. There was a question earlier on about what 
single thing could we do right now. In Iowa, my personal 
opinion is the single thing we need to do, is we need to raise 
the tax on the tobacco and invest that money.
    Senator Harkin. That's good!
    Dr. Weiner. Invest that money in cancer control and cancer 
research as well as tobacco control.
    Senator Harkin. Very good. Shirley?
    Ms. Ruedy. Ditto!
    Senator Harkin. Lance?
    Mr. Armstrong. I would just echo what you guys said to this 
fellow's question, about what you can do. Listen, this room--
these guys have some power, some power. The man in the White 
House has some power. But this room has a lot more power. 
That's the way you make the difference because whatever your 
interest is, if it is the environment, if it is religion, if it 
is a gun, if it is a lot of different special interests, this 
has to become a special interest and one that bands together 
and says, we're voting that way. That's how you make the 
difference. So the power of this room, the ability for them to 
come together and pull together and say that we care about this 
and we're sick of the complacency and we're sick of this war, 
that's how we'll make a difference. So I can't stress enough, 
join--if it is a Live-Strong Army, if it is the American Cancer 
Society, or if it is an endless amount of other great 
organizations out there, stand up and say, ``that's it!'' I've 
had enough and I want to make a difference and I'm going to 
vote that way. That's how we ultimately make a serious 
difference, once and for all.
    Senator Harkin. Thank you.
    I thank all our panelists. I thank all of you for being 
here. What a great audience. Thank you for being here and 
showing your support for better cancer research and for 
changing our priorities. Go on site, livestrong.org. Okay, 
livestrong.org. You can go on the Lance Armstrong Foundation 
website. We need their help. I say that forthrightly. We need 
their help in marshalling up public opinion and getting all of 
you people working together in this effort. Again, I just want 
to thank all of you for being here.


                         CONCLUSION OF HEARING


    I thank Senator Kerry for his great leadership through all 
these years, his friendship, and to Lance Armstrong, thank you 
for your great, great personal involvement in this and what 
you've done to focus the public's attention on this. We're 
going to win this one, folks. We just have to make sure that we 
emulate Lance Armstrong and don't ever give up. Thank you.
    [Whereupon at 10:01 a.m., Friday, July 28, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
